HHS/OIG-Audit--"Operation Restore Trust Skilled Nursing Facility Review Conducted at Rosemont Health Care Center, Orlando, Florida, (A-04-96-01125)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Operation Restore Trust Skilled Nursing Facility Review Conducted at Rosemont Health Care Center, Orlando, Florida," (A-04-96-01125)
February 6, 1997
Complete
Text of Report is available in PDF format (966 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The primary objective of the review was to evaluate the medical necessity of the care and services provided and the reasonableness
of the charges and reimbursements made during the periods from January 1, 1994 through December 31, 1994.
The Operation Restore Trust reviewers questioned $55,306 in charges reported for the 14 sample beneficiaries in our study.
This amount comprises $55,202 related to physical, occupational, speech and respiratory therapy services that were determined
to be not reasonable or medically unnecessary and in uncovered or undocumented laboratory and supply charges. Therefore,
we are recommending an adjustment of the above charges.